                            Office of Inspector General
                            Legal Services Corporation



Inspector Genera]
Jc:ffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007~35S8
202,295. 1660 (p) 202,337, 66 16 (f)
v.ww.oig.lsc.gov

      June 9, 2014

      Mr, James H. Fry
      Executive Director
      Legal Services Alabama , Inc,
      207 Montgomery St., Suite 1200
      Montgomery, AL 36104-3537

      Dear Mr. Fry:

      Enclosed is the Office of Inspector General's (OIG) final report for our audit of Selected Internal
      Controls at Legal Services Alabama , Inc, (LSA), The OIG has reviewed your comments on the
      findings and recommendations in the draft report, Your comments are included in the final report as
      Appendix II.

      The OIG considers the proposed actions to address Recommendation 1,2, 3, 4, 6, 7, 8,9 and 13 as
      responsive. However, all nine recommendations will remain open until the OIG is notified in writing
      that the proposed action has been completed or implemented,

      The grantee's comments are not responsive to Recommendation 5, 10, 11 and 12. Grantee
      management's response only provides that the LSA Accounting Manual will be updated to address
      the issues. The responses do not include what procedures will be performed at this time to correct
      the specific issues.

      The OIG is referring $29,915 in questioned costs to LSC Management for their determination . These
      costs involve expenditures of LSC funds that were identified as questioned costs, unallowable,
      unsupported or insufficiently supported,

      We thank you and your staff for your cooperation and assistance.

      Sincerely,

      ,~C.
      JeldJiJE, Schan ~­
      Inspector General

      Enclosure

      cc:            Legal Services Corporation
                     Jim Sandman, President
                     Lynn Jennings. Vice President for Grants Management



                                                                                         =IbLSC
                                                                                         II      Am.rica', Partner For   «i",J Ju,licc
    LEGAL SERVICES CORPORATION

    OFFICE OF INSPECTOR GENERAL




FINAL REPORT ON SELECTED INTERNAL
            CONTROLS


  LEGAL SERVICES OF ALABAMA, INC.

             RNO 601037


          .Report No. AU 14-05


               June 2014

             www.oig.lsc.gov
                                               TABLE OF CONTENTS

INTRODUCTION ........ ................. ............. .. ... ... ... ......... .............. ................ 1

OBJECTiVE .............................. ... .......... ........ .......... ............ ........ ............... 1

OVERALL EVALUATION .......................................................................... 1

AUDIT FINDINGS ..... .... ... ...... ........ .. ..... ...... ......................................... ....... 3

     Disbursements .......... .................... ... .. .. ..... ................... .... .... .... ............. 3
        Recommendation 1 ............. ...... .. .................... .. ..... ............... ... ........ 5
        Recommendation 2 ............. .. ................................ ... ... ....... ... ... ........ 5
        Recommendation 3 .................................................. .......... .... .. ........ 5

     Segregation of Duties .......... ..... ...... ... ......... ............. .. ............. .... ........... 5
        Recommendation 4 ......................... ... ......... .. .. ... .. .......... .. ............. ... 6

     Accounting for Matching Funds ......... ... ............ ..................................... 6
        Recommendation 5 ................... .............. ....... ................ .. ... ........ .... .7

     Rental Income and Expense Allocation .................. .... .... ...................... 7
        Recommendation 6 ................. ........... .... ........ .. ........ .. .......... ... ......... 8
     Contracti ng ......................... .......... .......... ........................ ......... .... .. ... ..... 8
        Recommendation 7 ....... ............................. .. ...................... ... ........... 8
        Recommendation 8 .................................... .. ............... ....... ..... ......... 8

     Fixed Assets ........ ... ........................ .... ... .............. ... .... ... .. .... ................. 8
        Recommendation 9 ............... ........................................................... 9
        Recommendation 10 .......... ....................................... ....................... 9
        Recommendation 11 .............. ........ .... ....................... .. .... ........ .. ....... 9
        Recommendation 12 ....... .. ... ............. ........ .............................. ....... 10

     Written Policies ................................ ... ... .... .. ... ....................... .. ........... 10
        Recommendation 13 ...................................................................... 11
                                    TABLE OF CONTENTS
                                        (continued)


SUMMARY OF GRANTEE MANAGEMENT COMMENTS ........................... 11

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ........ ....... 11

APPENDIX 1- SCOPE AND METHODOLOGY ................... ....... ............. .. .. 1-1

APPENDIX 11- GRANTEE MANAGEMENT COMMENTS .......... .. ... ............ 11-1




                                                ii
                                  INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Legal Services of Alabama, Inc. (LSA
or grantee) related to specific grantee operations and oversight. Audit work was
conducted at the grantee's administrative office in Montgomery, Alabama and at LSC
headquarters in Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee " ... is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines intemal control as follows :

       [T]he process put in place, managed and maintained by the
       recipient's board of directors and management, which is designed
       to provide reasonable assurance of achieving the following
       objectives :

       1. safeguarding of assets against unauthorized use or disposition ;
       2. reliability of financial information and reporting; and
       3. compliance with regulations and laws that have a direct and
          material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely
upon its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.

                                     OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability.       Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.

                             OVERALL EVALUATION

Our audit found a number of significant problems with the design and operation of some
of the internal controls reviewed at LSA.

   •   The OIG tested 89 LSA disbursements expensed between January 2012 and
       September 2013. Of the disbursements tested, 35 disbursements (39 percent)
       totaling approximately $32 ,572 were unallowable, unsupported, insufficiently
       supported, or not approved .

                                            1
•   Policies and procedures were in place over the use of credit and debit cards
    including credit card usage, authorization, number of accounts, spending limits,
    payment procedures, and permissible charges. These policies were comparable
    with credit card guidance in LSC Accounting Guide. We noted that some credit
    card disbursements lacked adequate documentation.

•   Duties were not properly segregated in the areas of maintenance of the vendor
    list, purchase order processes, invoice entries and vendor check disbursements.

•   LSA had a questionable practice of accounting for matching funds. LSC funds
    were charged to a non-LSC grant for matching purposes even though the grant
    had an excess fund balance at the end of the grant period . It is the practice of
    the grantee to transfer these excess funds to the general unrestricted account.

•   LSA does not have a system to reasonably track and match the costs and
    revenues associated with the space that the grantee leases out on two
    properties. Therefore, we were unable to determine if the rental income covered
    the rental expenses or if LSC funds were used to subsidize tenants.

•   LSA needs to develop policies and procedures relating to soliciting and awarding
    contracts. In addition, controls over contracting need to be strengthened by
    using written contract agreements.

•   Our review noted the grantee's fixed assets policy and procedures lacked certain
    components of the Property Acquisition and Management Manual (2001)
    (PAMM). In addition, the grantee's current practice for physical inventory was
    inadequate. Specifically, physical inventory results were not reconciled with
    property records and issues were not followed up on that were identified during a
    physical inventory. Also, the subsidiary record and the master inventory records
    did not have all information required by the LSC Accounting Guide, such as the
    identification number, location of item and check number used to purchase the
    item .

•   The grantee's current practices involving cost allocation, client trust funds,
    derivative income and internal reporting and budgeting were generally in
    accordance with the LSC's Fundamental Criteria. However, the documented
    cost allocation procedures need to provide sufficient details fully describing how
    costs are allocated . The written policies and procedures relating to client trust
    funds need to be revised to include all components of the Fundamental Criteria .
    Policies and procedures for derivative income and internal reporting and
    budgeting need to be documented in the grantee's Accounting Manual.

•   Finally, our tests confirmed that the amounts of salary advances requested by
    employees were adequately approved and did not exceed the net amount of two
    weeks pay as stipulated in the policies contained in the grantee's Accounting


                                         2
            Manual. Our tests also confirmed from accounting records that the amounts
            deducted towards the repayment of the salary advances were accurate.


                                       AUDIT FINDINGS

DISBURSEMENTS

Of the 89 disbursements tested, 35 disbursements valued at approximately $32,572,
were not allowed, not supported or inadequately supported, or not approved.

            Our testing noted:

               10 disbursements were unallowable;
                5 that were unsupported;
               15 that were insufficiently supported; and
                5 that were not approved .

Ensuring that costs are allowable, maintaining adequate supporting documentation for
expenditures and approving disbursements appropriately helps to ensure that funds are
only used for authorized purposes.

LSC Regulation 45 CFR Part 1630, Costs Standards and Procedures, among other
requirements, provide that expenditures by a grantee be reasonable and necessary for
the performance of the grant or contract and adequately documented .            The
Fundamental Criteria also states that disbursements require adequate documentation
supporting the reason for each disbursement contained in the files.

LSC Regulation 45 CFR Part 1627, Subgrants and Membership Fees or Dues, provide
that LSC funds may not be used to pay membership fees or dues to any private or
nonprofit organization, whether on behalf of a recipient or individual, unless mandated
by a governmental organization to engage in a profession.

Unallowable Costs

LSC funds were used to pay for 10 disbursements, totaling approximately $3,46i, that
were unallowable.

      •     Five disbursements totaling $1,655 2 to pay membership dues to organizations in
            violation of 45 CFR §1627.4;
      •     One disbursement totaling $700, an overpayment for conference registration;


1 The amount has been revised from the draft report based upon an additional review of supporting
documentation. The amount increased by $405.

2   Ibid.

                                                   3
    •   One payment totaling $817.08 (questioned amount totals $408.54) to pay for a
        training class held on a cruise ship3;
    •   One disbursement totaling $429.82 to purchase flowers ($40.88) and food for a
        retirement party;
    •   One disbursement totaling $203.47 to pay for refreshments and travel for
        non-LSA staff; and
    •   One disbursement totaling $65 due to a per diem variance (out of state per diem
        paid versus in state).

Within the meaning of 45 CFR §1630.3, the OIG is questioning the cost of the ten
disbursements totaling $3,462 4 The questioned costs will be referred to LSC
management for review and action.

Unsupported Costs

Supporting documentation was missing for five disbursements (representing 31
transactions) of LSC funds totaling approximately $6,894:

    •   One credit card disbursement totaling $2,553.10 to pay for travel and meals with
        no supporting documentation for any of the charges;
    •   One credit card disbursement totaling $630 to pay for an undeterminable charge;
    •   One credit card disbursement totaling $3,034.39 to pay conference and hotel
        costs with no supporting documentation for any of the charges;
    •   One disbursement totaling $352 to pay airline and parking costs with no
        supporting travel expense form; and
    •   One disbursement totaling $325 to pay membership dues with no supporting
        invoice.

Within the meaning of 45 CFR §1630.3, the OIG is questioning the cost of the four
disbursements totaling $6,569 s   The questioned costs will be referred to LSC
management for review and action.

Insufficiently Supported Costs

Sufficient supporting documentation was not provided for fifteen disbursements totaling
$15,179:

    •   Nine disbursements (representing 51 transactions) of LSC funds totaled
        $12,318.21. These mainly consisted of travel expenses paid for on credit cards.

3 The training was held on a cruise ship and the $817.08 was the price of training and cost of the cruise
based on double occupancy. However, management indicated that only one person attended the training .
Documents provided indicate another person was on the trip. It is not reasonable to pay for double
occupancy if only one person was attending.
4 See Footnote 1.
5 One disbursement totaling $325 was both unallowable and unsupported. Therefore, we have only
questioned the cost once, under unallowable costs.

                                                    4
       Travel expense reports were not included with the credit card expenses,
       therefore not providing a purpose for the travel expenses.
   •   Six disbursements (representing 16 transactions) of LSC funds totaling
       $2,861.11 for luncheons held by the grantee did not include a list of attendees.

Within the meaning of 45 CFR §1630.3, the OIG is questioning the cost of the 15
disbursements totaling $15,179.   The questioned costs will be referred to LSC
management for review and action.

Improper Approval

Five disbursements totaling approximately $7,036 were not approved in accordance
with the grantee's approval procedures:

   •   Four disbursements totaling $7,009.96 for credit card purchases exceeding
       $1 ,000 did not have prior approval from the Executive Director as stipulated by
       the credit card policy.
   •   One disbursement totaling $26 .36 for a check requisition did not have
       supervisory approval.

These disbursements had supporting documentation and were allowed. Therefore we
are not questioning these costs.

The Controller stated that she had only been with the grantee for three months and the
unsupported and unapproved disbursements might have been due to oversight. In
addition, the Controller stated that the unallowable disbursements, specifically
membership dues, were due to grantee's lack of knowledge of LSC's Regulations.

Recommendations. The Executive Director should ensure that:

Recommendation 1: LSC funds are only used to pay allowable costs;

Recommendation 2: procedures are enforced that require disbursements to be
accompanied by supporting documentation before payment; and

Recommendation 3: procedures are enforced to ensure invoices and credit card
charges are properly approved prior to payment.

SEGREGATION OF DUTIES

LSA did not have segregation of duties in place for four major business processes.
These processes were maintenance of the vendor list, purchase order preparation,
invoice entries and vendor check disbursements. The accounting clerk who was
responsible for maintaining the vendor master file also prepared purchase orders,
processed invoices and check disbursements. A master vendor file is a listing in an
accounting system of all approved vendors from whom goods or services are

                                           5
purchased. Generally, access to this file should be limited; and receiving and paying
duties should be segregated, as a vendor's existence in the file allows purchase orders
to be issued and checks to be cut to these vendors.

According to LSC's Accounting Guide Chapter 3-4

      Accounting duties should be segregated to ensure that no individual
      simultaneously has both physical control and record keeping
      responsibility for any asset, including, but not limited to, cash, client
      deposits, supplies and property. Duties must be segregated so that no
      individual can initiate, execute, and record a transaction without a
      second independent individual being involved in the process.

The Controller stated that the Accounting Clerk performs most of the functions due to
the small size of the office. Without proper segregating of duties there is an increased
possibility that misappropriation, concealment or theft could happen and not be
discovered timely.

Recommendation 4: The Executive Director should develop compensating controls,
such as independent monitoring, to assure that tasks handled by the same individual
are processed consistently.

ACCOUNTING FOR MATCHING FUNDS

LSC funds were charged to a non-LSC grant for matching purposes even though the
grant had a fund balance remaining at the end of the grant. According to grantee
management, it was the practice of the grantee to transfer the difference between the
amount of non-LSC funds provided by the funder and the amount of non-LSC funds
charged to the grant to the grantee's unrestricted general fund . The amounts charged
to LSC funds were not reduced when such a surplus existed. As a result, LSC funds
were used to subsidize the grantee's unrestricted general fund . The grant was a
subgrant from West Tennessee Legal Services, Inc. (WTLS) to implement the National
Foreclosure Mitigation Counseling Program (NFMC) Round 6.

LSA received $98,100 in revenue for NFMC Round 6 which required a 20 percent
match by the grantee. To comply with the matching requirement, $4,704.03 of LSC
funds (equaling 4 percent of the grant amount) were charged to the grant. According to
the grantee's records, the total cost of performing the grant was $91,710.34. Because
the amount of non-LSC funds charged to the grant was less than the amount of funds
provided by the funder (not including LSC's matching funds), it was the grantee's
practice to transfer the difference, in this case $6,389.66, to the grantee's unrestricted
general account. As a result, LSC funds were used in part to subsidize the grantee's
general fund. In our opinion, the grantee should use all funds provided by the non-LSC
funder before using LSC funds for matching purposes. We are therefore questioning
$4,704.03 charged to LSC funds as not being reasonable and necessary for the
performance of the non-LSC grant.


                                            6
While LSC funds can be used for federal matching purposes when all LSC allowability
standards are met, when LSC funds are used for matching purposes, we believe that
the funds received from the non-LSC funder be used first before LSC funds are used for
matching purposes.

The OIG is questioning a total of $4,704 .03 for the grant described above.        The
questioned costs wi ll be referred to LSC management for review and action .

Recommendation 5: The Executive Director should develop written policies and
procedures to ensure that non-LSC funds be used before LSC funds are used for
match ing purposes.

RENTAL INCOME AND EXPENSE ALLOCATION

LSA does not have a system to reasonably track and match the costs and revenues
associated with the space that the grantee leases out in two properties. As such , we
were unable to determine if the rental income covered the rental expenses or if LSC
funds were used to subsidize tenants. Also, LSA may not have the information
necessary to comply with state and federal tax laws and regulations governing income
generating properties .

LSA leased space out to tenants in two buildings owned by the grantee, one in Selma
and the other in Birmingham. LSA occupies a portion of each building for its own use.
LSA contracted with a realtor to manage both buildings. The realtor receives the lease
payments and pays the building expenses including utilities, repairs , cleaning ,
landscaping , etc. At the end of every month , the realtor prepares a summary of the
rental income and the building expenses and submits with the supporting documents to
LSA. While the income can be associated with specific tenants, the expenses are not
broken down by the amount allocated to LSA and the amount allocated to each tenant.
As a result, LSA has no way of determining if the lease payments are covering the
related expenses for each tenant. Also, LSA does not have the information requ ired by
taxi ng agencies to support the leasing activity.

The Executive Director stated that although he was aware that the buildings have a
loss, the amount of loss was reduced with in the past few years. In addition, he stated
that the buildings often require repairs and renovations which account for most of the
costs . While the expenses associated with the buildings may have exceeded the
amount of rental income, without adequate accounting of the expenses associated with
LSA occupied space and with each tenant, there would be no way of determining if the
leases were at least covering their costs. Accurate accounting for both the revenue and
expenses associated with each lease helps ensure that rent amounts charged are
reasonable and that the information necessary to comply with applicable state and
federal tax laws and regulations is available.

Recommendation 6: The Executive Director should develop a system to adequately
track rental income and expenses associated with each tenant.


                                           7
CONTRACTING

Written policies and procedures for contracts and consultants as required by LSC's
Fundamental Criteria were not in place to describe and assign responsibilities for
securing contracts. Some of the major items missing included the following:

             •   Specific procedures for various types of contracts;
             •   Competition requirements;
             •   Approval authorities and dollar thresholds for approvals;
             •   Documentation requirements to support contracting decisions such as
                 sole source justifications and contract modifications; and
             •   Contract oversight responsibilities.

While written policies and procedures needed improvement, we also noted that the
contracting practice was not entirely adequate. We noted that there were no formal
contract agreements for janitorial services. The grantee stated that for janitorial
services, they attempt to obtain the best quote. We noted monthly payments ranging
from $240 to $396 per month to four janitorial vendors . For two of these vendors the
payment amounts noted on the check register fluctuated; but without a formal contract,
there was no way to validate the basis of the payments.

Without a formal contract, the statement of work along with other contract terms cannot
be adequately communicated and monitored, which may obstruct management's ability
to prevent or detect the risk of fraud, waste, and abuse.

Recommendations: The Executive Director should:

      Recommendation 7: ensure written policies and procedures for contracting
      address all required areas contained in LSC's Fundamental Criteria; and

      Recommendation 8: implement formal agreements describing cost and terms of
      work for all contracted jobs.

FIXED ASSETS

LSA fixed assets written policies and procedures were mostly comparable to LSC
Fundamental Criteria. However, some policies need to be expanded and policies that
were documented need to be followed.

Some requirements contained in Sections 3 and 4 of the LSC PAMM need to be
documented in LSA's policies. Section 3 requires LSC's prior approval in obtaining bids
for the acquisition of personal property over $10,000 when using LSC funds. It also
requires documenting the reasons when competitive quotes are not obtained. Section 4
requires that the grantee seek LSC's prior approval to use LSC funds to acquire real
property and for expenditures for capital improvements.


                                           8
Grantee management was not following some of its own policies.

   a. While a physical inventory was conducted as required by the Fundamental
      Criteria, the results of the physical inventory count were not reconciled to the
      property records. During the physical inventory process, LSA reconciled
      capitalized property and expensed inventory with the master inventory listing but
      there was no system in place to cross reference items on the master inventory
      listing and the property subsidiary record. As a result, LSA could not fully
      account for fixed asset purchases.

   b. LSA count sheets had issues noted during the physical inventory that were not
      followed up. These issues included notes about capitalized or expensed property
      that required an asset tag, was disposed, or that the current location was
      unknown. We performed a test to determine whether property was tagged and
      whether property information was appropriately updated to the master inventory
      listing and noted four instances where property was not tagged and 10 instances
      where property information was not appropriately updated to the master inventory
      listing. Per discussion with the LSA Controller and Accounting Clerks, once the
      notations were made on the master inventory listing, no further action was taken
      to dispose of the issues.

   c. The property subsidiary record did not contain three information fields required
      by the LSC Accounting Guide: identification number, location of item and check
      number used to purchase the item.

While LSA management agreed with the issues, the new Controller and accounting staff
indicated that the former Controller was responsible for the process. Properly
accounting for fixed assets enables the grantee to safeguard its assets, fully account for
the assets purchased, and support reconciliations so that property asset balances are
accurate.

Recommendations: The Executive Director should :

   Recommendation 9: develop written policies and procedures that implement
   Sections 3 and 4 of the LSC Property Acguisition and Management Manual (2001);

   Recommendation 10: ensure that the results of physical inventory counts are
   reconciled with property subsidiary records so as to address any differences
   between quantities determined by the inventory and those shown in the accounting
   records;

   Recommendation 11: improve the physical inventory count process to ensure that
   all issues identified during physical inventory count are resolved timely;

   Recommendation 12: update the property records to include all fields required by
   LSC Fundamental Criteria.


                                            9
WRITTEN POLICIES

Operating practices for some areas reviewed were not documented in the grantee's
Accounting Manual to comply with the Fundamental Criteria contained in the LSC
Accounting Guide.       The LSA Accounting Manual documents the policies and
procedures to be followed by LSA staff in meeting the objectives and criteria of LSC and
its other funding sources. The grantee's current practices in use involving cost
allocation, client trust funds, derivative income and management reporting and
budgeting generally conformed to the Fundamental Criteria, but these practices need to
be fully documented .

The cost allocation process appears to be reasonable as direct expenses are allocated
to the funding source that benefited from the expense and indirect costs are allocated
based on a time study percentage. However, the written procedures did not fully
describe the process as practiced by the grantee. The procedures should provide
sufficient details, as required by the LSC Accounting Guide, fully describing how costs
are allocated.

The grantee appeared to have adequate internal controls relating to client trust receipts,
disbursements and ledger maintenance. However, client trust fund policies did not
include all necessary requirements of LSC's Fundamental Criteria. The written policies
did not include procedures for updating the general ledger for the client trust fund
account and reconciling the client trust fund bank account to the client trust fund general
ledger account.

The grantee received derivative income in the form of rent, investment interest,
attorneys' fees and other miscellaneous income. Although the grantee did not have
documented policies for derivative income, they had a practice of allocating 100 percent
of the interest and rent to LSC while attorneys' fees were allocated based on the hours
spent on the case and funding.

The grantee's budget process including creation and submission of monthly reports
appears reasonable and is in conformity with the Fundamental Criteria. However, the
grantee did not fully document its management report preparation policies, procedures,
and responsibilities in its Accounting Manual.

In establishing an adequate internal control structure, each grantee must develop a
written accounting manual that describes the specific procedures to be followed by the
grantee in complying with the Fundamental Criteria contained in the LSC Accounting
Guide.

Without adequate written policies and procedures in place, transactions may be initiated
and recorded that violate management intentions, or possibly laws or grant
restrictions. Written policies and procedures also serve as a method to document the
design of controls and to communicate the controls to the staff.



                                            10
Recommendation 13: The Executive Director should document policies for cost
allocation, client trust funds, derivative income and management reporting to include all
areas required by the LSC Fundamental Criteria.


          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed with the findings and recommendations contained in the
report. Grantee management stated its Accounting Manual will be updated over the next
twelve months to include written policies and procedures in accordance with the LSC
Accounting Manual to address all of the issues raised in the report.

The Executive Director has changed supervision of the Accounting Department to the
Director of Operations effective May 22, 2014. In regard to questioned costs, the
Director of Operations will coordinate with members of the OIG audit team to identify
and resolve the questioned disbursements. Those expenses that were unallowable will
be reclassified.

In addition to the Accounting Manual update:

   •   Management will conduct training for credit cardholders and accounting
       personnel to ensure the credit and debit card procedures are followed to ensure
       the need for adequate supporting documentation ;

   •   The Director of Operations is conducting an internal control and segregation
       review and will ensure that duties are properly segregated;

   •   Management will conduct a review of vendors to ascertain the status of contracts
       and/or to obtain written contracts for service; and

   •   Management is working with their Property Manager to develop a system to track
       and match the costs and revenues associated with space that LSA leases.

Management's formal comments can be found in Appendix II.


                OIG EVALUATION OF GRANTEE COMMENTS

The OIG considers grantee management's actions planned to address
Recommendation 1, 2, 3, 4, 6, 7, 8, 9 and 13 as responsive to the find ings and
recommendations contained in the report. The actions planned by grantee management
to address the issues and revise and update its Accounting Manual should correct the
issues identified in the report. The OIG considers all nine recommendations open until
such time as written notification is received by OIG that all agreed actions have been
taken and implemented by the grantee.


                                           11
The grantee's comments are not responsive to Recommendation 5, 10, 11 and 12.
Grantee management's response only provides that the LSA Accounting Manual will be
updated to address the issues. The responses do not address what procedures will be
performed at this time to correct the specific issues.

The OIG has coordinated with grantee management and provided them supporting
documentation for the questioned costs identified on the report.




                                         12
                                                                        APPENDIX I

                            SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following activities:

   •   Cash disbursements;
   •   Cost Allocation;
   •   Contracting;
   •   Credit cards;
   •   Property and Equipment;
   •   Internal Management Reporting and Budgeting; and
   •   Salary Advances.

In addition we reviewed controls over derivative income and client trust fund accounting.
Controls over derivative income were reviewed to determine whether income was
properly recorded and allocated. Controls over client trust fund accounting were
reviewed but not tested .

To obtain an understanding of the internal controls over the areas reviewed ; grantee
policies and procedures were reviewed including manuals, guidelines, memoranda, and
directives, setting forth current grantee practices. Grantee officials were interviewed to
obtain an understanding of the internal control framework, and management and staff
were interviewed as to their knowledge and understanding of the processes in place.
To review and evaluate internal controls, the grantee's internal control system and
processes were compared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporting System (Fundamental Criteria) contained in the
LSC Accounting Guide. This review was limited in scope and was not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations.

We assessed the reliability of computer generated data provided by the grantee by
reviewing source documentation for the entries selected for review. We determined the
data were sufficiently reliable for the purposes of this report.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation , disbursements from a judgmentally selected sample of
employee and vendor files were reviewed. The sample was taken from the period
January 1, 2012 through September 30, 2013, and represented approximately 6 percent
of the $4 ,098,561 disbursed for expenses other than payroll and consisted of 89
transactions totaling $258,907. To assess the appropriateness of expenditures, we
reviewed invoices, vendor lists, and traced the expenditures to the general ledger. The
appropriateness of those expenditures was evaluated on the basis of the grant
agreements, applicable laws and regulations, and LSC policy guidance.

                                           II - 1
To evaluate and test internal controls over the contracting process, credit card use,
internal management reporting and budgeting, and property and equipment, we
interviewed appropriate program personnel, examined related policies and procedures,
and selected specific transactions to review for adequacy.

Controls over salary advances were reviewed by examining the personnel policies and
practices, and by testing a judgmentally selected sample of employee reimbursements
as part of the disbursements testing. To assess the salary advance process, we
reviewed salary advance requests for appropriate approvals and verified that the
amounts requested did not exceed the net amount of 2 weeks pay as stipulated in the
policies contained in the grantee's Employee Handbook. We also reviewed accounting
records showing the amount paid in advance and individual pay statements showing the
amounts deducted towards the repayment of the salary advance.

To evaluate the adequacy of the cost allocation process, we discussed the cost
allocation process for 2012 with grantee management and requested, for review, the
grantee's written cost allocation policies and procedures as required by the LSC
Accounting Guide. We recalculated the cost allocation amounts for 2012 using the
information provided by the grantee.

Controls over derivative income were reviewed by examining current grantee practices
and reviewing the written policies contained in the grantee's Accounting Manual. To
evaluate controls over client trust fund accounting, we interviewed appropriate program
personnel and examined related policies and procedures.

The on-site fieldwork was conducted from October 16 through October 24, 2013. Our
work was conducted at the grantee's central administrative office in Montgomery,
Alabama and at LSC headquarters in Washington, DC. Documents reviewed pertained
to the period January 1, 2012 through September 30, 2013.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the
audit objectives.




                                         11-2
\

                                                                                        APPENDIX II

    iPLEGAL SERVICES
                            ALABAMA

    May 23, 2014

    Mr. John M. Seeba
    Assistant Inspector General for Audit
    Office of the Inspector General
    Legal Services Corporation
    3333 K Street NW, 3rd Floor
    Washington, DC 20007-3558

           RE: Response to Draft Report on Selected Internal Controls -RNO 601037
               RNOAUXX-XX

    Dear Mr. Seeba:

            I am in receipt of the draft report on your audit of Selected Internal Controls at Legal
    Services Alabama dated April 15,2014. I appreciate the efforts of your staff on this project and
    the professional manner in which the audit was conducted. Thank you for this opportunity to
    continue to improve our internal controls and fiscal accountability while we continue to serve
    Alabama' s low-income community. I am providing remarks to the report's recommendations
    and am including a corrective action plan to address the issues and findings raised during the
    audit.

            We are planning to revise and update our entire accounting guide over the next twelve
    months. I changed the supervision of our accounting department to our Director of Operations
    effective May 22, 2014. We will consult the LSC Accounting Guide to ensure the Fundamental
    Criteria are included in our Accounting Manual. The updated LSA Accounting Manual will
    include written policies and procedures to address all of the issues raised in your report,
    specifically disbursements, segregation of duties, accounting for matching funds, rental income
    and expense allocation, contracting, fixed assets, cost allocation, client trust funds, derivative
    income, management reporting and budgeting. Our Director of Operations will work with your
    audit team to identify and resolve the questioned costs identified in your audit report.

           Once the revised Accounting Manual has been completed and approved, I will forward to
    you an electronic copy.

           LSA agrees with Recommendation 1 that the Executive Director should ensure that LSC
    funds are only used to pay allowable costs.

           LSA agrees with Recommendation 2 that the Executive Director should ensure
    procedures are enforced that require disbursements to be accompanied by supporting
    documentation before payment.


    207 Montgomery Street, Suite 1200    Montgomery, AL 36104     (334) 832-4570         iilbLSC
,I




     Page 2
     May 23, 2014
     John Seeba

            LSA agrees with Recommendation 3 that the Executive Director should ensure
     procedures are enforced to ensure invoices and credit card charges are properly approved prior to
     payment.

            LSA agrees with Recommendation 4 that the Executive Director should develop
     compensating controls, such as independent monitoring, to assure that tasks handled by the same
     individual are processed consistently.

             LSA agrees with Recommendation 5 that the Executive Director should develop written
     policies and procedures to ensure that non-LSC funds be used before LSC funds are used for
     matching purposes.

            LSA agrees with Recommendation 6 that the Executive Director should develop a system
     to adequately track rental income and expenses associated with each tenant.

             LSA agrees with Recommendation 7 that the Executive Director should ensure written
     policies and procedures for contracting address all required areas contained in LSC's
     Fundamental Criteria.

            LSA agrees with Recommendation 8 that the Executive Director should implement
     formal agreements describing cost and terms of work for all contracted jobs.

             LSA agrees with Recommendation 9 that the Executive Director should develop written
     policies and procedures that implement Sections 3 and 4 of the LSC Property Acquisition and
     Management Manual (2001).

             LSA agrees with Recommendation 10 that the Executive Director should ensure that the
     results of physical inventory counts are reconciled with property subsidiary records so as to
     address any differences between quantities determined by the inventory and those shown in the
     accounting records.

            LSA agrees with Recommendation II that the Executive Director should improve the
     physical inventory count process t6 ensure that all issues identified during physical inventory
     counts are resolved timely.

            LSA agrees with Recommendation 12 that the Executive Director should update the
     property records to include ail fields required by LSC Fundamental Criteria.




     207 Montgomery Street, Suite 1200    Montgomery, AL 36104     (334) 832-4570         iilbLSC
 Page 3
 May 23, 2014
 John Seeba

 LSA agrees with Recommendation 13 that the Executive Director should document policies for
 cost allocation, client trust funds , derivative income and management reporting to include all
 areas required by the LSC Fundamental Criteria.

        Again, thank you for the opportunity to provide comments to the audit report and to
improve our internal controls and fiscal accountability. Should you have any questions or
require additional information, please call me at (334) 223-5120.

                                                            Sincerely,

                                                           a~lJ\a{'A
                                                           ~esH. Fry             (J
                                                            Executive Director

JF/eh

Enc!.




Isc oig may 23 2014




207 Montgomery Street, Suite 1200   Montgomery, AL 36104     (334) 832-4570
                                                                                      ii!6LSC
                 Legal Services Alabama Corrective Action Plan RNO 601037
         LSC GIG Audit of Selected Internal Controls - Draft Report Issued April IS, 2014 7

                                                            Findings

Finding 1.    The GIG rested 89 LSA disbursements expended between January 2012 and
September 2013. Of the disbursements tested, 35 disbursements (39 percent) totaling
approximately $32,672 were unallowable, unsupported, insufficiently supported, or not
approved.

Corrective Action Plan: The Director of Operations will coordinate with members of the LSC
OIG audit team to identify and resolve the questioned invoices. Those invoices and/or expenses
that were unallowable will be reclassified.
Estimated Completion Date: June 30, 2014
Office of Primary Responsibility: Director of Operations

Finding 2.     Policies and procedures were in place over the use of credit and debit cards
including credit card usage, authorization, number of accounts, spending limits, payment
procedures, and permissible charges. These policies were comparable with credit card guidance
in LSC Accounting Guide. We noted that some credit card disbursements lacked adequate
documentation.

Corrective Action Plan: LSA will conduct training for cardholders and accounting personnel to
ensure the credit and debit card procedures are followed to ensure the need for adequate
supporting documentation.
Estimated Completion Date: July 31, 2014
Office of Primary Responsibility: Director of Operations

Finding 3.    Duties were not properly segregated in the areas of maintenance of vendor list,
purchase order processes, invoice entries and vendor check disbursements.

Corrective Action Plan: The Director of Operations, having assumed supervision of the LSA
Accounting Department effective May 22, 2014 is conducting an internal control and segregation
review and will ensure that duties are properly segregated.
Estimated Completion Date: June 15,2014
Office of Primary Responsibility: Director of Operations

Finding 4.     LSA had a questionable practice of accounting for matching funds. LSC funds
were charged to a non-LSC grant for matching purposes even though the grant had an excess
fund balance at the end of the grant period.

Corrective Action Plan: LSA will review and update the LSA Accounting Manual to address the
matching funds and the issue raised during the LSC GIG audit regarding the use of LSC funds
for matching purposes. A copy of the updated LSA Accounting Manual will be provided to the
LSC GIG upon completion.
Estimated Completion Date: December 31, 2014
Office ofPrimary Responsibility: Director of Operations
LSA Corrective Action Plan - LSC DIG Audit of Select Internal Controls - April 15. 2014         1
Finding 5.      LSA does not have a system to reasonably track and match the costs and revenues
associated with the space that the grantee leases out on two properties. Therefore, we were
unable to determine if the rental income covered the rental expenses ofifLSC funds were used
to subsidize tenants.

Corrective Action Plan: LSA is working with our Property Manager to develop a system to
track and match the costs and revenues associated with space that LSA leases. A copy of the
updated LSA Accounting Manual will be provided to the LSC OIG upon completion.
Estimated Completion Date: June 30, 2014 - Develop system for tracking and matching costs
and revenues of rental space for lessees.
Estimated Completion Date: No later than December 31 , 2014 Update of LSA Accoup.ting
Manual
Office ofPrimary Responsibility: Director of Operations

Finding 6.     LSA needs to develop policies and procedures relating to soliciting and awarding
contracts. In addition, controls over contracting need to be strengthened by using written
contract agreements.

Corrective Action Plan: LSA will develop written policies and procedures relating to the
solicitation and awarding of contracts in accordance with the LSC Accounting Guide
Fundamental Criteria, among others. LSA will conduct a review of our vendors to ascertain the
status of contracts and/or to obtain written contracts for service.
Estimated Completion Date: No later than December 31, 2014
Office ofPrimary Responsibility: Director of Operations

Finding 7.       Over review noted that grantee's fixed assets policy and procedures lacked certain
components of the Property Acquisition and Management Manual (2001) (PAMM). In addition,
the grantees current practice for physical inventory was inadequate. Specifically, physical
inventory results were not reconciled with property records and issues were not followed up on
that were identified during a physical inventory. Also, the subsidiary record and the master
inventory records did not have all information required by the LSC Accounting Guide, such as
the identification number, location of item and check number used to purchase the system.

Corrective Action Plan: LSA will develop written policies and procedures relating to the fixed
assets to include physical inventories and property records in accordance with the LSC
Accounting Guide, the LSC Property Acquisition and Management Manual, and LSC
regulations, among others.
Estimated Completion Date: No later than December 31 , 2014
Office of Primary Responsibility: Director of Operations




LSA Corrective Action Plan - LSC OIG Audit of Select Internal Controls - April 15. 2014          2
Finding 8.     The grantee's current practices involving cost allocation, client trust funds,
derivative income and internal reporting and budgeting were generally in accordance with the
LSC's Fundamental Criteria. However, the documented cost allocation procedures need to
provide sufficient details fully describing how costs are allocated. The written policies and
procedures relating to client trust funds need to be revised to include all components of the
Fundamental Criteria. Policies and procedures for derivative income and internal reporting and
budgeting need to be documented in the grantee's Accounting Manual.

Corrective Action Plan: LSA will develop written policies and procedures relating to the cost
allocation, client trust funds , derivative income and internal reporting and budgeting in
accordance with the LSC Accounting Guide and LSC regulations, among others. LSA is
rewriting the LSA Accounting Manual this year and will address the issues raised during the
LSC orG audit.
Estimated Completion Date: No later than December 31, 2014
Office ofPrimary Responsibility: Director of Operations

Finding 9.      Finally, our tests confirmed that the amounts of salary advances requested by
employees were adequately approved and did not exceed the net amount of two weeks pay as
stipulated in the policies contained in the grantee ' s Accounting Manual. Our tests also
confirmed from accounting records that the amounts deducted towards the repayment of the
salary advances were accurate.
Corrective Action Plan: No action required. However, LSA deleted the provision for salary
advances on February 5, 2013 .




lSA Corrective Action Plan - LSC OIG Audit of Select Internal Controls - April 15. 2014         3
